                                                        U.S. Department of Justice


                                                        United States Attorney
                                                        District of Maryland


Rod J. Rosenstein                                       36 South Charles Street                      410-209-4800
United States Attorney                                  4th Floor                          TTY/TDD: 410-962-4462
                                                        Baltimore, Maryland 21201                    410-209-4885
Vickie E. LeDuc                                                                                  FAX 410-962-3091
Public Information Officer                                                                 Vickie.LeDuc@usdoj.gov


June 30, 2014
FOR IMMEDIATE RELEASE                                   Contact AUSA VICKIE E. LEDUC or
www.justice.gov/usao/md                                 MARCIA MURPHY at (410) 209-4885

            TWO PRINCE GEORGE’S COUNTY WOMEN EACH SENTENCED TO
             OVER 2 YEARS IN PRISON FOR MORTGAGE FRAUD SCHEMES

                    Separate Fraud Schemes Resulted in Over $2.5 Million in Losses and
                               at Least 25 Individual and Corporate Victims

        Baltimore, Maryland – U.S. District Judge James K. Bredar sentenced Rhonda Scott, age
52, of Oxon Hill, Maryland, today to 30 months in prison followed by three years of supervised
release for conspiring to commit wire fraud in connection with two separate mortgage fraud
schemes which resulted in losses of over $2.5 million. Judge Bredar also entered an order that
Scott forfeit $2.7 million and pay restitution of $703,000.

       Judge Bredar also sentenced co-defendant Niesha Williams, age 34, of Fort Washington,
Maryland today to 27 months in prison followed by three years of supervised release for
conspiring to commit wire fraud in connection with one of the mortgage fraud schemes. Judge
Bredar also ordered that Williams forfeit $3.1 million and pay restitution of $1,445,593

        The sentences were announced by United States Attorney for the District of Maryland
Rod J. Rosenstein; Special Agent in Charge Stephen E. Vogt of the Federal Bureau of
Investigation; Principal Deputy Inspector General Fred W. Gibson, Jr. of the Federal Deposit
Insurance Corporation; Special Agent in Charge Cary A. Rubenstein of the Housing and Urban
Development Office of Inspector General; Special Agent in Charge Gene E. Morrison,
Washington Field Office, U.S. Department of Justice Office of the Inspector General; Howard
County Police Chief William McMahon; Special Agent in Charge Brian Murphy of the United
States Secret Service - Baltimore Field Office; and Howard County State’s Attorney Dario
Broccolino.

        According to their plea agreements, beginning in 2008, Scott participated in several
fraudulent real estate transactions that settled at M&R Title, Inc. located in Alexandria, Virginia,
and at Sanford Title Services, located in Columbia, Maryland. The fraudulent transactions at
each title company were part of different conspiracies. In both schemes, Scott facilitated deals
between her co-conspirators, recruited individuals that could be parties to the real estate
transactions, received proceeds of the fraudulent transactions through a shell company designed
to hide her receipt of the funds, sent money to co-conspirators and identified mortgage
transactions that the co-conspirators could use to enrich themselves.

          As part of the M&R Title conspiracy, Scott, Demetrius Peete and others deceived buyers,
sellers and lenders to make it appear to sellers that they were selling their property at a low price,
and to buyers and lenders that the property was being sold at a higher price. The co-conspirators
created paperwork for two different sales of the property at the same time. The first sale was
fraudulent because it was backdated, the buyer planned to immediately flip the property in a
subsequent sale and the settlement statement listed a fake loan. In the second sale, the sales
price was significantly increased and the settlement statement showed a large sum being
disbursed to the lender to payoff an existing lien. In fact, those funds were improperly disbursed
to the co-conspirators.

        As to the Sanford Title conspiracy, Scott, Peete, Bonnie Kraemer, Niesha Williams,
Emeka Udeze and others used many fraudulent techniques, including: short sales in which the
property would be sold for a higher price than the seller was aware of; sales of properties not
owned by the seller, including properties Scott purported to own but in fact did not; multiple
sales of the same property at the same time; the seller and/or buyer were shown different
settlement statements and the conspirators used the difference in sales price to enrich themselves;
and money that should have been paid to lien holders was instead disbursed to the
co-conspirators. Williams facilitated deals between her co-conspirators, sent funds illegally
obtained from real estate transactions to her co-conspirators, and identified mortgage transactions
that the co-conspirators could use to enrich themselves.

        Both of the M&R Title and Sanford Title fraud schemes involved at least 25 victims,
including lenders, sellers and buyers of real estate, title insurance companies and lien holders.
The reasonably foreseeable loss associated with Scott’s conduct was at least $2.5 million. The
loss associated with Williams’ offenses was at least $3.1 million.

        Bonnie Kathleen Kreamer, a/k/a Bonnie Meehan, age 49, of Riva, Maryland; Emeka Udeze,
age 39, of Bowie, Maryland; Shola Risikat Balogun, age 48, of Upper Marlboro; Gregory Green, age
49, of Waldorf, Maryland; and Demetrius Peete, age 46, of Manassas, Virginia, each previously
pleaded guilty to their roles in the fraud schemes. Kreamer, who was responsible for the daily
operations at Sanford Title, was sentenced on April 25, 2014 to 51 months in prison, and ordered to
pay restitution of $2,499,048 to the victims and to forfeit $4.8 million. Green was previously
sentenced to three months in prison and ordered to pay restitution of $404,596. The other conspirators
await sentencing.

        The Maryland Mortgage Fraud Task Force was established to unify the agencies that
regulate and investigate mortgage fraud and promote the early detection, identification,
prevention and prosecution of mortgage fraud schemes. This case, as well as other cases brought
by members of the Task Force, demonstrates the commitment of law enforcement agencies to
protect consumers from fraud and promote the integrity of the credit markets. Information about
mortgage fraud prosecutions is available www.justice.gov/usao/md/Mortgage Fraud/index.html.

        Today’s announcement is part of efforts underway by President Obama’s Financial Fraud
Enforcement Task Force which was created in November 2009 to wage an aggressive,
coordinated and proactive effort to investigate and prosecute financial crimes. With more than 20
federal agencies, 94 U.S. attorneys’ offices and state and local partners, it’s the broadest coalition
of law enforcement, investigatory and regulatory agencies ever assembled to combat fraud. Since
its formation, the task force has made great strides in facilitating increased investigation and
prosecution of financial crimes; enhancing coordination and cooperation among federal, state
and local authorities; addressing discrimination in the lending and financial markets and
conducting outreach to the public, victims, financial institutions and other organizations. Over
the past three fiscal years, the Justice Department has filed more than 10,000 financial fraud
cases against nearly 15,000 defendants including more than 2,700 mortgage fraud defendants.
For more information on the task force, visit www.stopfraud.gov.

       United States Attorney Rod J. Rosenstein commended the FBI, U.S. Secret Service,
FDIC, HUD-OIG, Department of Justice OIG, Howard County Police Department and Howard
County State’s Attorney’s Office for their work in the investigation. Mr. Rosenstein thanked
Assistant United States Attorney Harry Gruber and Special Assistant United States Attorney
Colleen McGuinn assigned to this case from the Howard County State’s Attorney’s Office, who
prosecuted the case.
